<html>
<title> - PIPES ACT OF 2016 IMPLEMENTATION: OVERSIGHT OF PIPELINE SAFETY PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


PIPES ACT OF 2016 IMPLEMENTATION: OVERSIGHT OF PIPELINE SAFETY PROGRAMS

=======================================================================

                                (115-47)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-569 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>                              
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York               STACEY E. PLASKETT, Virgin Islands
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin

                                  (ii)

  
     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman

JOHN J. DUNCAN, Jr., Tennessee       MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 DONALD M. PAYNE, Jr., New Jersey
LOU BARLETTA, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
MARK MEADOWS, North Carolina         ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            JOHN GARAMENDI, California
MARK SANFORD, South Carolina         ANDRE CARSON, Indiana
TODD ROKITA, Indiana                 RICHARD M. NOLAN, Minnesota
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut
BRIAN BABIN, Texas                   CHERI BUSTOS, Illinois
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            MARK DeSAULNIER, California
LLOYD SMUCKER, Pennsylvania          DANIEL LIPINSKI, Illinois
PAUL MITCHELL, Michigan              GRACE F. NAPOLITANO, California
JOHN J. FASO, New York, Vice Chair   PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
MIKE GALLAGHER, Wisconsin
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter, including Pipeline Safety, Regulatory 
  Certainty, and Job Creation Act of 2011 mandates, and 
  Protecting our Infrastructure of Pipelines and Enhancing Safety 
  Act of 2016 mandates...........................................    vi

                               TESTIMONY
                                Panel 1

Hon. Howard ``Skip'' Elliott, Administrator, Pipeline and 
  Hazardous Materials Safety Administration......................     3

                                Panel 2

Andrew J. Black, President and CEO, Association of Oil Pipe Lines    29
Robin Rorick, Group Director, Midstream and Industry Operations, 
  American Petroleum Institute...................................    29
Chad Zamarin, Senior Vice President, Corporate Strategic 
  Development, The Williams Companies, Inc., on behalf of the 
  Interstate Natural Gas Association of America..................    29
Carl Weimer, Executive Director, Pipeline Safety Trust...........    29

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Howard ``Skip'' Elliott.....................................    39
Andrew J. Black..................................................    50
Robin Rorick.....................................................    56
Chad Zamarin.....................................................    65
Carl Weimer......................................................    70

                       SUBMISSIONS FOR THE RECORD

Hon. John Garamendi, a Representative in Congress from the State 
  of California, submission of the names and ages of those killed 
  in the Pacific Gas and Electric Company pipeline rupture on 
  September 9, 2010, in San Bruno, California, as well as photos 
  of the incident referenced in his verbal remarks...............    83
Letter of June 21, 2018, from Mark Uncapher, Director, Fiber 
  Optic Sensing Association (FOSA), to Hon. Jeff Denham, 
  Chairman, Subcommittee on Railroads, Pipelines, and Hazardous 
  Materials, et al...............................................    87
Article, ``Our Russian `Pipeline,' and Its Ugly Toll,'' by 
  Editorial Board, Boston Globe, February 13, 2018...............    90
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 
PIPES ACT OF 2016 IMPLEMENTATION: OVERSIGHT OF PIPELINE SAFETY PROGRAMS

                              ----------                              


                        THURSDAY, JUNE 21, 2018

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    Good morning. This is the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials. Our hearing today will 
focus on the oversight of the Department of Transportation's 
pipeline safety program, which is administered by the Pipeline 
and Hazardous Materials Safety Administration, or PHMSA.
    The United States has the largest network of energy 
pipelines in the world, and it helps power nearly every facet 
of our daily activities. Pipelines account for transportation 
of 64 percent of the energy commodities consumed in the United 
States. To ensure that pipelines continue to be the safest and 
most cost-effective means to transport energy products, 
diligent oversight of DOT's pipeline safety programs is a top 
priority.
    Here is the issue. Over the past decade, we have continued 
to see this committee pass out reauthorizations, only to see 
them get stalled. The 2016 PIPES [Protecting our Infrastructure 
of Pipelines and Enhancing Safety] Act strengthened a lot of 
our efforts from the 2011 act. But as Mr. Capuano and I have 
continued to discuss these issues, we have seen slow 
implementation. The PIPES Act contained 19 mandates, 13 of 
which are complete. The 2011 law included 42 congressional 
mandates, of which 34 are complete. And today we'll hear from 
PHMSA on where all the PIPES Act and 2011 act mandates stand.
    I look forward to hearing from industry on how it is being 
proactive in its own safety initiatives to ensure best 
practices for inspections, detecting leaks, and other important 
safety initiatives.
    In closing, I want to thank each of the witnesses here 
today, and I would now like to recognize the ranking member, 
Mr. Capuano, for any opening statement he may have.
    Mr. Capuano. Thank you, Mr. Chairman. I want to thank all 
the panelists for being here today.
    I generally don't do much of an opening statement, and I am 
not going to do one today. But I am going to ask the panelists. 
The thing I am most interested in is what has happened to the 
regulations that we mandated and we set deadlines for that are 
now--some of them--many years past that deadline.
    Now, I am not a stickler for deadlines by day by day. It is 
one thing being 1 month late. Six months late, a year late--
some of these are many, many, many years late, and they are not 
small regulations. And for me, I would ask our panelists today 
to focus on that issue. What is the problem with getting some 
of these done? And why is it taking so long?
    And with that, I am simply going to pass it back.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Capuano. Today we have two 
panels of witnesses.
    I would like to recognize Mr. Larsen to introduce one of 
our witnesses on the second panel.
    Mr. Larsen. Thank you, Mr. Chairman. And thanks for letting 
me sit in on this. And I appreciate the indulgence. There is a 
hearing in the Committee on Armed Services that I need to get 
over to, as well, but do want to note what a critical role 
pipelines play in our Nation's infrastructure.
    And I am very pleased to be able to welcome a fellow 
Washingtonian and a constituent from Whatcom County to the 
second panel, Carl Weimer, who is the executive director of the 
Pipeline Safety Trust.
    Carl has been a vocal champion and leader of improving 
pipeline oversight and accident prevention measures for nearly 
20 years. The Trust was formed following the deadly 1999 
pipeline explosion in my district, a day that a pipeline 
explosion caused release of 237,000 gallons of gasoline into a 
creek that flowed through Whatcom Falls Park in Bellingham. It 
was ignited and claimed the lives of two 10-year-old boys and 
an 18-year-old young man.
    Since that tragedy, the Trust has worked tirelessly to 
achieve zero pipeline incidents, promote sustainable energy 
production and distribution, and increase the transparency of 
pipeline information for local communities.
    So Carl does a lot of things, but he is also a Whatcom 
County Council member, so he is an elected official. So he gets 
it, he understand what we go through trying to make these 
decisions and to represent folks, and do that in a way that is 
respectful.
    I do as well share with the subcommittee the concern about 
implementing the mandates, implementing the things we have said 
we needed to implement, going back to the 2011 and 2016 
pipeline bills. But I would note that, going back to 2002, when 
I first got here, I have been working on these issues of 
pipeline safety.
    So I want to thank Carl for testifying.
    And if I may just have a special thanks to PHMSA 
Administrator Skip Elliott, as well, for recently visiting 
Washington State's Second Congressional District to tour the 
Olympic pipeline site in Bellingham with the Pipeline Safety 
Trust and others, and I appreciate him being here today.
    And with that, I yield back.
    Mr. Denham. Thank you, Mr. Larsen.
    We have two panels today. The first is the Honorable Skip 
Elliott, Administrator of PHMSA. Our second panel will have 
four witnesses today. We will have questions for both.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    We will begin with the first panel.
    Mr. Elliott, welcome to the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials. We welcome your testimony.

   TESTIMONY OF HON. HOWARD ``SKIP'' ELLIOTT, ADMINISTRATOR, 
     PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION

    Mr. Elliott. Chairman Denham, Ranking Member Capuano, thank 
you for the opportunity to testify before the Railroads, 
Pipelines, and Hazardous Materials Subcommittee today.
    The mission of PHMSA, the Pipeline and Hazardous Materials 
Safety Administration, is to protect people and the environment 
by advancing the safe transportation of energy products and 
other regulated commodities that are essential to our daily 
lives.
    After working for decades in the freight rail industry, a 
great deal of it focused on improving public safety, I believe 
that safety is the result of effective smart regulations that 
hold operators fully accountable for their systems.
    But I also know that it takes more than just regulations to 
improve pipeline safety performance to its highest possible 
levels. In my 7 months leading PHMSA I have worked hard to 
listen closely to all stakeholders: public, Government, 
industry.
    And I believe that firsthand experience is the best way to 
fully understand the impact of an event, and I traveled 
extensively to see how natural gas pipelines are being 
installed in Pennsylvania; how we train State and Federal 
pipeline inspectors at our world-class training facility in 
Oklahoma; how States are working to reduce third-party pipeline 
excavation damage in Arizona; how operators are developing and 
testing the latest in pipeline inspection technology in Texas; 
and how near a beautiful place called Whatcom Falls in 
Bellingham, Washington, a pipeline disaster forever changed 
that community and the people who live there.
    With this as background, I hope today you will all leave 
with a clear picture of how I seek to advance PHMSA's important 
safety mission. My written testimony reports on two categories 
of PHMSA activity.
    First, I wanted to update you on our progress in closing 
outstanding mandates, including rulemakings for hazardous 
liquid and natural gas transmission pipelines, as well as 
valves and rupture detection. I do understand the committee's 
concerns about these rules. During my confirmation hearing I 
talked about the importance of setting priorities and ensuring 
quality and safety.
    In my written testimony I provide details on PHMSA's 
efforts to prioritize congressional directives in a way that 
will allow us to finalize each rule quickly, but without 
impacting the quality and safety benefits of each individual 
rule. These rules remain at the top of my priority list, and I 
assure you that PHMSA is working diligently and expeditiously 
to complete each one.
    Second are PHMSA's nonregulatory efforts, including our 
inspector training, grants program, and research and 
development. Other important nonregulatory steps include 
pipeline damage prevention programs and other initiatives that 
encourage industrywide investments in safety management 
systems. Each of these areas extends PHMSA's influence beyond 
our own relatively small staff, which is an operational 
necessity, if we are ever to approach the goal of zero 
incidents.
    As we work at moving our regulatory portfolio forward, our 
most important focus is and always will be on safety. We work 
hard at balancing the information, data, comments, and concerns 
of all of our regulatory stakeholders, including industry. And 
while there has been significant advancement in the capability 
of sophisticated inline pipeline inspection tools, there is not 
always enough verifiable data available to fully validate the 
positive safety effects we require.
    Accordingly, PHMSA is not always able to provide the 
regulatory latitude some in industry are seeking as quickly as 
they may want. It is worth noting, however, that the pipeline 
industry appears to be on the verge of a safety technology 
renaissance. And once this technology can be fully proven, the 
greatest hurdle will be in keeping regulatory requirements 
current with the pace of new and better safety solutions that, 
in the not too distant future, have the real potential to 
provide the most serious pipeline incidents from ever 
occurring.
    Safety of the systems that we regulate is very good, with a 
positive safety rate on both the pipeline and hazardous 
materials side that exceeds 99.99 percent. But because our goal 
is an incident rate of zero, very good is just a subtle way of 
saying not quite good enough.
    In that context, our prospect of success lies at the 
margin. Zero incidents is a maximum goal. It will never be met 
only by enforcing minimum standards. Even as we work hard to 
close congressional mandates and perfect our core regulatory 
functions, we must pursue success at that margin through 
comprehensive training and education, cutting-edge research and 
development, strengthening State partnerships, and encouraging 
industrywide development of consistent and culture-changing 
safety management systems.
    With that, thank you again for this opportunity today, and 
I look forward to answering any questions you may have.
    Mr. Denham. Thank you, Mr. Elliott. You have been on the 
job a few months now. Can you describe some of the challenges 
that PHMSA has faced in implementing the 2011 and 2016 
mandates?
    Mr. Elliott. Mr. Chairman, thank you for that question. As 
I mentioned in my comments, I certainly do share the 
subcommittee's frustrations on moving forward these open 
mandates. In your----
    Mr. Denham. But I would say it is a very bipartisan 
frustration, as well.
    Mr. Elliott. Yes, sir. We recognize that the 2016 PIPES Act 
has a number of open mandates, as does the 2011.
    But going back to what I mentioned, I am fully focused on 
prioritizing the rules that will move most of the mandates 
forward as quickly as possible.
    We have done several things. We are moving forward the 
liquid pipeline rule that is in the final rule stage. That will 
answer a number of mandates that are open from both the 2011 
and the 2016 PIPES Act, as well as some NTSB [National 
Transportation Safety Board] and GAO [U.S. Government 
Accountability Office] requirements.
    We are also expediting the safety of natural gas pipeline 
rule, which was oftentimes referred to as the mega-rule. It 
actually had 14 separate sections to it. What we have done is 
basically parsed that out into three sections. But the first 
section that will move the most quickly--it too is in the final 
rule stage--will address the open mandates from the 2011 and 
2016 bill.
    And the last rule that is the one that I get a lot of 
questions about has to do with rupture detection and automatic 
valves. That one is not as far along. It is still at the notice 
of proposed rulemaking. But I have informed my staff that that 
is one that we have to move forward as quickly as possible.
    I think there's some other good news on the mandates. The 
mandate that dealt with emergency order authority is in the 
interim final rule stage, and it is over at OMB [Office of 
Management and Budget] now, so that should be coming out 
shortly. And then there are several others that are following 
up.
    So basically, what we are trying to do is move the rules 
that have the ability to close most of those open mandates from 
2011 PIPES Act, 2016 PIPES Act, as well as addressing open NTSB 
and GAO requirements.
    We have a concerted effort at PHMSA. We are working to 
consolidate our whole regulatory process under my Deputy 
Administrator, and we see good movement. I have had great 
discussion with the Department on moving these mandates 
forward, too.
    Mr. Denham. What takes so long to implement a rule? We are 
talking about 2011 and 2016.
    Mr. Elliott. Mr. Chairman, I can only really address what I 
have seen since coming on board about 7 months ago.
    Mr. Denham. Well, as you work to implement several new 
regulations, are there legacy regulations that need to be 
updated or eliminated?
    Mr. Elliott. I would say that we need to look into seeing 
if there are more legacy regulations, yes, sir, that need to be 
updated or regulated. And the team at PHMSA does that 
regularly, it looks to update regulations.
    Mr. Denham. Are there impediments to implementing 
regulations that you feel like you need legislative fixes to 
implement them?
    And we are searching here----
    Mr. Elliott. Right.
    Mr. Denham. We have had a number of conversations here on, 
you know, Congress passes laws, you would expect, once a law is 
passed, signed into law, that it gets implemented very, very 
quickly. We're talking 2011.
    So, you know, we have had an ongoing frustration here on 
why it would take so long to pass something, let alone 
something that we passed in 2016. When young Mr. Shuster was a 
chair of this subcommittee in 2011, those still aren't even 
implemented. What can we do to help you?
    Mr. Elliott. Well, Mr. Chairman, I certainly share your 
frustrations. I can tell you that after 40 years in the freight 
rail industry, where things moved at a pretty rapid pace, to me 
there were some frustrations taking over the leadership at 
PHMSA about some of the sluggishness.
    We are doing everything that we can within PHMSA to 
expedite and streamline the process so at least that part of 
the rulemaking process that we have control of at PHMSA that we 
can move through in a much quicker pace than we have 
historically. That work is ongoing. I am a man that believes 
that actions speak louder than words. We are working on that 
now, and I hope that in the not too distant future you will be 
able to see some of the results of that action.
    Mr. Denham. Thank you.
    Mr. Capuano?
    [No response.]
    Mr. Denham. Mr. DeFazio?
    Mr. DeFazio. Thanks, Mr. Chairman.
    You started to say, in response to the chairman, that you 
could only speak to what you had seen since you arrived 7 
months ago, in terms of why the rulemaking is so delayed. You 
didn't get to answer that, or didn't finish that thought, I 
don't think. Could you?
    Mr. Elliott. Ranking Member DeFazio, good morning to you, 
sir.
    Mr. DeFazio. Thank you. Good morning.
    Mr. Elliott. I have to, I think, tell you that, you know, 
coming into the role at the head of PHMSA and beginning to 
understand the whole regulatory process, including the backlogs 
of open mandates, I think it is fair to say that there were a 
number of explanations as to why the open mandates seem to 
languish, even those from the 2011 PIPES Act.
    But what I have really tried to focus on is understanding 
the concern. I mean from the first day that I came to PHMSA, 
you know, there were regular dialogue about why are these 
mandates not moving any faster. And going back to my 
confirmation hearing, I said that we need to prioritize, but we 
can't reduce quality and we can't reduce safety.
    So I think we have done the prioritization part, at least 
from what I have been able to see from my time at PHMSA. Again, 
we are working to make the whole regulatory process at PHMSA 
much more streamlined. We have made good progress. I think 
there is more work to do. But I do hope, Ranking Member 
DeFazio, that this is something that will be sustainable for 
years to come.
    I am also learning, you know, that there are some reviews 
that take place outside of PHMSA that also play a role in the 
whole regulatory process, and I am learning quickly about that.
    Mr. DeFazio. Yeah, I think we would be talking about OMB. 
They hold up a lot of things over there.
    Are you bound by this two-for-one rule, so you are going to 
have to repeal two things--like, for instance, you mentioned 
that rupture detection, which is a very, very high priority of 
the Congress, is still in the NPRM stage.
    Mr. Elliott. Right.
    Mr. DeFazio. You know, if you are going to move forward 
with that, are you going to have to find two other rules to 
repeal?
    Mr. Elliott. Congressman, you know, one, I think, bit of 
good news is, you know, at least my experience in dealing with 
the regulatory reform process, is that we have been able to 
basically--in the case of the gas rule, we have been actually 
able to streamline the bill. It was actually getting too 
complex, and I worried that it would be too complex for 
operators to implement. And I do honestly think that could have 
a negative impact on public safety. So no, I don't think that 
has been an impediment at all.
    With regards to the leak detection rule, I mean, I asked 
the same questions. I mean it seems to me that this is a very 
important rule. There are some people that thought, you know, 
some of the elements of that rule were included in the liquid 
pipeline rule.
    But I am comfortable with the fact that a lot of the leak 
detection, rupture detection elements that provide the greatest 
protection actually go back to the original integrity 
management rule that was put in place a number of years ago. So 
it is not as if there aren't any rupture or leak detection 
ingredients in the rulemaking. It is just that this is going to 
enhance that part of the rule.
    Mr. DeFazio. Well, yes. I mean the idea is, I mean, we have 
had incidents--you know, Enbridge and others--where, you know, 
quite a period of time elapsed between, you know, the initial 
leak and their capability.
    And then also automatic shutoffs. So, you know, I would 
hope that both of those things are going to move along. I mean 
the integrity management obviously didn't work in those cases, 
and the--or the California gas explosion. So I think we need 
something more than the basic integrity program to assure 
public safety and also protection for the environment.
    One other quick question. I don't want to overuse my time 
here. PHMSA is also working on a rule to require railroads to 
develop and implement comprehensive oil spill response plans. 
Where are we at on that?
    Mr. Elliott. So that rule is moving forward, as well. I 
need to inform you all that actually I am recused from that 
rule, but I can give you my perspective.
    That rule is something very near and dear to my heart, 
after spending 40 years in the railroad. I am proud of the work 
that we did at the railroad that I worked on in developing a 
very solid, comprehensive spill plan. I think it is something 
that all railroads need.
    I do understand the nuances that came into play after we 
started moving unit trains of petroleum crude oil and ethanol. 
So I can assure you, and the team at PHMSA understands that 
this is a rule that we are moving through pretty quickly. It 
was one that was--I wouldn't say it was on a back burner, but 
it is now on a front burner, sir.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Denham. Mr. Shuster?
    Mr. Shuster. Thank you, Chairman.
    Thank you, Mr. Elliott, for being here today. And I know 
you have been there several months, and I think I have seen a 
pickup in the pace of some of these things moving. But as 
Chairman Denham and I think Mr. DeFazio expressed, there is 
bipartisan concern and frustration. So again, we want to 
encourage you to move forward. And I think, as Chairman Denham 
said, if there is something we can do legislatively to assist, 
we are standing ready, willing, and able to do that.
    In the 2011 bill, one of the priorities that I had in the 
bill was to set up training facilities across the United 
States. I know you set up one in Oklahoma City. And by all 
accounts and reports it is producing, it has been successful, I 
think. And I just wanted to know the proliferation of pipelines 
throughout the Northeast, and hopefully into the New England 
States, if we can get New York to finally get off their hands 
and get that gas to New England.
    Are there any plans for establishing other training 
facilities? And I know Pennsylvania is very, very interested in 
working in--quite frankly, it was the Pennsylvania Public 
Utility Commission that came to me with that idea, and it 
seemed like a good idea. So can you address that?
    Mr. Elliott. So, Mr. Chairman, good morning. It is very 
good to see you today.
    Training and education of our inspectors, as well as the 
broader emergency response community is something that I 
strongly believe----
    Mr. Shuster. Can you pull your mic a little closer to you? 
The whole box. The whole box will move. Thanks.
    Mr. Elliott. You are correct about our training facility in 
Oklahoma City. I mentioned in my oral comments that I do think 
it is a world-class facility. It just received accreditation, 
international accreditation, so that we can start issuing 
credits for the training that we do.
    But to answer your question, I think it is something that 
we talk about regularly, and I met with some of the leadership 
of the Pennsylvania Public Utility Commission back in February 
at their conference. My real concern is making sure that if we 
move away from doing training at other than the Oklahoma 
training facility, where we bring in our Federal and State 
inspectors now, to ensure that same level of training that we 
can transfer to remote sites.
    And the reason that I say that is because if we can't, if 
somehow we are providing substandard training to the 
inspectors, then, to me, that has a direct impact on public 
safety because the inspectors are not providing the same level 
of public safety.
    So the answer is we are looking into it. But I have to 
understand better how we can take this world-class training 
that we are doing in Oklahoma City and transfer that to remote 
facilities, if we can do that at all.
    I do understand the convenience of it when we met with the 
Pennsylvania delegation. You know, one of their big concerns 
was about the level of convenience, having people go out to 
Oklahoma City. But right now that is the place to go, because 
we know the consistency of the training out there.
    And our goal is to make sure that every State and every 
Federal inspector has the possible best training, whether or 
not it is for liquid, gas, or underground storage facilities. 
And as soon as we can figure out how to bottle that and move it 
someplace else, we can do that.
    Mr. Shuster. Well, I appreciate that you want to make sure 
that the training is world class, and so, as you move forward, 
I know that Pennsylvania and many of the other mid-Atlantic 
States are very interested in that, because again there is a 
convenience that people don't have to fly halfway across the 
country.
    And training for pipeline inspections is pipeline 
inspection with a State inspector or a Federal inspector, 
basically, is that correct?
    Mr. Elliott. Say that again, sir.
    Mr. Shuster. If a State inspector and a Federal inspector--
they are basically--a pipeline is a pipeline to--you know, 
different pipelines, but their training should be identical, 
correct?
    Mr. Elliott. It is very similar, yes.
    Mr. Shuster. OK, all right. And the second question I have 
is in the 2016 bill that Mr. Denham shepherded through to law, 
section 16 provides for an entity subject to the order--an 
opportunity for a petition and review of an administrative law 
judge under the emergency order authority, but the final 
regulation, I don't believe, is done yet. Will you be including 
in that to allow for the petition for review by an 
administrative law judge, as required by the statute?
    Mr. Elliott. Chairman Shuster, thank you for the question. 
So that rule is in the final rule stage, and the answer to your 
question is yes, it does have the provision that would allow 
review by an administrative law judge.
    Mr. Shuster. Right, right. And then, just finally, a 
comment that I know that many of the pipeline companies around 
the country are developing and implementing, or they want to 
implement new technologies. Their big concern is, though, going 
out and spending millions of dollars to deploy this new 
technology and make this pipeline safer, and PHMSA's not 
keeping up with them. And their concern is they go out and put 
this money out there, and then PHMSA makes a rulemaking and 
they have got to go back and redo what they have already done.
    Again, that is a great concern, I know, from industry, and 
something that I hope you and your folks at PHMSA are going to 
keep your eye on that ball. Because, again, that would be not a 
good thing to spend money on those types of technologies and 
those kinds of safety improvements and then just having to redo 
them. So again, your attention to that would be greatly 
appreciated, from our standpoint.
    Mr. Elliott. Well, Chairman, we are addressing that, and I 
share that exact concern, having gone out to see just how 
quickly the safety technology is advancing in the pipeline 
industry.
    You know, and I use the analogy--it was very similar in the 
railroad side, and I basically say in the not too distant 
future the technology will be there to preclude, you know, a 
lot of these catastrophic incidents from ever occurring. We 
have to be smart enough to get out of the way of that----
    Mr. Shuster. Right.
    Mr. Elliott [continuing]. Smart technology.
    Mr. Shuster. Great. Thank you very much.
    Mr. Denham. Mr. Capuano?
    Mr. Capuano. Thanks, Mr. Chairman. Thanks, Mr. Elliott.
    Mr. Elliott, you have enough staffing over at PHMSA to get 
your job done?
    Mr. Elliott. Yes, we do. I will tell you when I came on 
board I was a bit concerned when I was getting my initial 
briefs. We had 40 vacancies, and most of those were in field 
inspection positions. The answer is why do we have so many 
vacancies is, as you might imagine, on the pipeline side, where 
we----
    Mr. Capuano. That is fair. But you have enough staffing to 
get your job----
    Mr. Elliott. We do. And I will tell you that----
    Mr. Capuano. Fair enough. You have enough funding for that 
staffing, and for the things you need to do?
    Mr. Elliott. We do right now.
    Mr. Capuano. Yes, but how is your relationship with OMB?
    Mr. Elliott. I think the relationship is fine.
    Mr. Capuano. OK.
    Mr. Elliott. I mean, I think they----
    Mr. Capuano. So you have enough staffing, you have enough 
funding.
    Mr. Elliott. We do.
    Mr. Capuano. You get along with OMB. Well, and again, I 
don't--I am not even sure I can ask you this question, because 
you haven't been there long enough. But, of course, that leads 
to the question if you have enough staffing, you have enough 
funding, you get along with OMB, what is taking so long?
    And I don't really want to ask you, because, you know, you 
haven't been there long enough. I appreciate that. I am not 
going to blame you. What about some of the guys behind you? Had 
they been there long enough to answer the question? Because 
there has got to be someone there who has been there more than 
a couple of months.
    Mr. Elliott. Well, Congressman, I believe that a good part 
of the staff at PHMSA shares the same frustration you do and 
that I do about moving regulations through----
    Mr. Capuano. Well, I understand that. But--I mean I get all 
that. But, you know, come on, 8 years? Eight years. And we are 
not talking about small, unimportant things.
    We are talking about a regulation talking about what is the 
maximum pressure that can be used in a pipeline. I think that 
is kind of important, and I don't know a whole lot about 
pipelines. I just know if you put too much pressure in a 
balloon, it pops. And I assume the same thing happens with 
pipelines.
    We are talking about pipelines' automatic or remote shutoff 
valves. Why? Because pipelines are pretty long and they go 
through long areas where there is nobody there. And if you 
don't have those, somebody has to get in the truck and drive 
for hours to go shut off a valve that has gone pop.
    Those are the kinds of regulations we are talking about, 
not small, little things. And you are telling me we have enough 
staffing, you have enough funding, you get along with OMB. I 
don't understand the problem.
    And the reason I ask is because we go through this every 
once in a while. PHMSA is a relatively new agency. I know you 
know that. Reauthorization is coming up, I think, next year. I 
am trying to ask myself why should I have an agency that I 
actually believe in. I think it is the right thing to have 
PHMSA, but if you are not doing your job, why bother? And if I 
do have you, why shouldn't we tie your funding to actually 
getting some of the job done?
    Now, again, I am not going to sit here and argue about 
regulations that are 6 months overdue. Fine, I get all that. 
Eight years? Eight years for not just one difficult regulation, 
but for multiple.
    And again, I don't want to blame you, you haven't been 
there 8 years. Is there anybody who has been there for 8 years?
    Mr. Elliott. Yes, there is a number of staff that have been 
there 8 years.
    Mr. Capuano. I am a little bit more than frustrated, to be 
honest with you. I am kind of angry. I would rather be sitting 
here fighting with you about the substance of your regulations 
that maybe I don't like, or whatever. But I can't even do that.
    Honestly, when you want to build pipelines it makes my job 
darn near impossible to look at my constituents and say, 
``Trust PHMSA, trust somebody that your safety is good,'' when 
I don't have a regulation that says what is too much to put 
into the pipeline, when I don't have a regulation that says how 
we are going to turn these things off when they do fail, when I 
don't have an agency that sits there and tells me something on 
the order of 35 to 50 percent of the accidents we have had are 
preventable.
    It feels like nobody cares. Now, I know that is an 
overstatement, and I actually think you care, and I actually 
like PHMSA. I like, when you do stuff, you seem to do it pretty 
well. But it seems like when you don't want to do stuff, you 
just don't do it. And for me, that kind of bodes poorly for 
reauthorization. It means I am going to be looking at ways to 
get you to do your job.
    Now, don't get me wrong. I am hoping, when reauth comes 
around, that these are done, and you can sit there and say, 
``Congressman, we did them all,'' and I am going to clap, and 
that is great, and let's move forward. But if not, of course, 
by that time I will be sitting in the big chair where Mr. 
Denham is.
    [Laughter.]
    Mr. Capuano. That is called optimism. And when we are, we 
are going to have a different conversation.
    Again, I know you are new, and I don't mean to beat you up, 
but you knew this was coming. It is not what you do, it is what 
you don't do that you haven't been asked to do, you have been 
required to do. These are not requests.
    And, by the way, mandates from Congress are exempted from 
the President's own Executive order, that two-for-one nonsense. 
If you got an old regulation, you should repeal it anyway. You 
shouldn't have to be told by daddy to repeal something that is 
no longer useful. Those are exempt.
    I appreciate you being here today and I appreciate the 
chairman's tolerance.
    Mr. Elliott. Congressman, my job, my responsibility, is to 
make you feel good about PHMSA again.
    Mr. Capuano. I hope so. Good.
    Mr. Denham. Thank you. Mr. Faso, you are recognized for 5 
minutes.
    Mr. Faso. Thank you, Mr. Chairman.
    Mr. Elliott, the concern that I have is along the lines 
with what Mr. Capuano was expressing in his very expressive 
way: the delay on the hazardous liquid rule, for instance.
    I represent a district in upstate New York that includes, 
among the 11 counties I represent, Schoharie County, where in 
1991 there was an explosion along a propane gas line in 
Blenheim, New York, that killed two people. And obviously, you 
can't go to that community today and talk about pipelines 
without many people having a very vivid recollection of that.
    So I would like you--you don't have to respond on this 
today, unless you can, but I would like to know the status of 
the regulatory oversight on that particular line, and 
expressing to you my concern with additional delay. Because the 
automatic shutoff valves and the leak detection systems--this 
is quite an old system that we have in that part of our State, 
and it is vitally important, I think, that people be reassured 
as to the safety of that system, and that the Federal and State 
agencies are doing what they can to ensure that incidents like 
that are not going to occur in the future, and that we are 
making every effort to ensure that incidents like that don't 
occur in the future.
    Mr. Elliott. Thank you, Congressman, we will look into that 
and make sure that we respond back to you. I do share your 
concerns. In my railroad days, having spent a lot of time up in 
your neck of the woods, any incident is an incident that we 
don't want to have, especially those that end up resulting in 
casualties, including injuries and fatalities. And we will look 
closely at what we can continue to do to improve the safety of 
transmission, distribution, and gathering lines.
    I have talked a little bit about it through some of the 
research and development that we are trying to put in place 
that will help us look over the horizon on what is the next 
best technology. And I do think that the integrity management 
systems, the safety management systems that we talk regularly 
about and enforce with the operators are making some headway.
    And then I do think it is the quality of the inspectors 
that are out there working with the operators every day and in 
the communities such as yours to make sure that we keep them as 
safe as possible.
    But I do share your concern.
    Mr. Faso. Thank you. I look forward to hearing back from 
you on that particular topic. Thank you so much.
    Mr. Elliott. Thank you, Congressman.

        [The Pipeline and Hazardous Materials Safety Administration 
        indicated that it has provided Congressman Faso with the 
        information he requested.]

    Mr. Faso. I yield back, Mr. Chairman.
    Mr. Denham. Ms. Esty, you are recognized for 5 minutes.
    Ms. Esty. Thank you very much, and I appreciate you being 
with us here today. You understand the high level of 
frustration here. And that is concern. I mean it is not 
frustration about our prerogatives being disrespected. This is 
about the people we represent.
    Sixty-four percent of energy in this country is carried 
through pipelines, 64 percent. PHMSA reported 649 pipeline 
incidents last year, 649, half of which were designated serious 
or significant, resulting in 22 fatalities of people we 
represent, 35 injuries, and more than $242 million in damages. 
The failure to implement these mandated requirements results in 
deaths.
    When I was serving in the State legislature, we had a new 
natural gas plant explode in Connecticut for failure to follow 
proper procedures. Six people lost their lives.
    So we need to know what exactly is the holdup here. What 
possibly can be--if you have got--again, as Mr. Capuano said, 
you have enough funding, you have the resources. Then why is 
this not happening? Because the consequences at a time when we 
are expanding pipelines--right?
    This administration has a commitment to expand resources 
and energy production in the United States. Almost all of that 
is flowing through pipelines. So you can understand we have 
extremely severe concern about the consequences of 6, 7, 8-
year-old mandates that have yet to be implemented. So we are 
facing a really serious question here of how we do our duty in 
oversight and in resourcing your agency to protect the American 
people.
    So again, I would ask what exactly is the holdup?
    Mr. Elliott. Congresswoman, I share your concerns and thank 
you for the question.
    I can't put my finger on any one item or thing that is the 
holdup. I can only tell you that we will continue to work very, 
very hard to move these very meaningful regulations through to 
conclusion.
    And as I said in my comments, I think it is going to take 
more than just the regulations, though. I think it is going to 
take continued conversation with all the shareholders--the 
stakeholders, the public, industry, and other Government 
agencies to make sure that we get that last bit of safety.
    I mean, as much as we talk about the incidents that occur, 
and they seem to be, when we hear them, to be an alarming 
number, it is still the safest way to move energy products in 
this country. What my job is, what the job of PHMSA is, is to 
work with you all to make sure that we can get that last little 
bit of safety. Unfortunately, what we see today are not maybe 
some of the minor incidents that were of large number, but now 
what we are seeing, unfortunately, might be more of those less-
frequent but very high-consequence kind of incidents that do 
create casualties. That is what I am focused on, that is what 
the team at PHMSA is focused on.
    So again, my job is to make you and the members of the 
subcommittee believe in PHMSA again through action.
    Ms. Esty. Well, I will tell you. In New England we have a 
real critical shortage. And there are efforts to try to expand 
pipelines. It is very hard for me to go to my constituents and 
urge them to do this when we have congressionally mandated 
safety regulations that have not even been introduced or 
promulgated for years. How can I go to my constituents and say, 
``We are from the Government, trust us''? We can't do that, 
responsibly.
    And so I will tell you there is a great deal of concern. We 
are facing energy shortages and price hikes in my part of the 
country, in my State. And yet, at the same time, we are facing 
regulations that have been mandated and aren't in place.
    So if you need more people, tell us, because asking for 
more time is--we are impatient because we are concerned about 
the safety of the people we represent. So again, I would urge 
you in the strongest possible terms to identify for us what we 
can do to move this forward, because, truly, the ball is in 
your court, and we are not patient at this point.
    Thank you. I realize you haven't been here long. But again, 
this needs to be done, and it is now your responsibility to do 
so.
    Thank you, and I yield back.
    Mr. Elliott. Thank you, Congresswoman.
    Mr. Denham. Thank you, Ms. Esty.
    Mr. Gallagher, you are recognized for 5 minutes.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Thank you, Mr. Elliott. As a new member of the committee, I 
look forward to working with you.
    So PHMSA has been exploring changes to the gas transmission 
integrity management program and gathering of pipeline 
regulations since 2011. These changes were supposed to be 
finalized in a single rulemaking that was supposed to be issued 
this summer, if I am understanding this correctly. However, a 
couple months ago PHMSA split that single rulemaking into three 
separate rules covering separate gathering and transmission 
pipeline issues with revised publication dates of 2019.
    So just so I understand it, why did PHMSA split that 
rulemaking at this late stage?
    Mr. Elliott. Congressman, thank you for the question. The 
answer to the question is the fact that, to move that 
regulation along in as unwieldy of a State that it was, would 
cause even further delay.
    The way that we have broken the rule into three parts, the 
first two deal with transmission lines, the third deals with 
gathering line. But the first two will deal with the two open 
mandates, as well as an--NTSB recommendations. So the plan is 
we are going to move them all forward, but that part of the 
rule now that has the open mandates and the recommendations is 
the one that we are going to give the most attention to.
    What I don't want to convey is the belief that just because 
we have split that rule into three, that we are not going to 
continue to move the other parts of the rule through as quickly 
as possible. We are going to do that. It is just going to make 
it more manageable for us to move it through the process.
    Mr. Gallagher. Why, then, did the publication dates get 
pushed out an entire year?
    Mr. Elliott. I will have to look into that. I am not sure 
of the exact reasons that the dates have been pushed out.

        [The Pipeline and Hazardous Materials Safety Administration 
        indicated that it has provided Congressman Gallagher with the 
        information he requested.]

    Mr. Gallagher. OK. I look forward to following up with you 
on that.
    And then, is PHMSA moving forward on the pipeline valve and 
rupture detection rulemaking?
    Mr. Elliott. Yes, we are. And as I had mentioned earlier, 
of the three priority regulations, the liquid rule, the gas 
rule, and the rupture detection rule, that is the one that is 
probably the furthest behind at the notice of proposed 
rulemaking stage. But we are going to fast-track that the best 
that we can.
    But again, I also want to remind you that a lot of the 
integrity management regulations cover a lot of the leak and 
rupture detection. This will modernize it, it will create some 
additional safety measures, but it is not by any means the only 
leak and detection rules that we have.
    Mr. Gallagher. Yes, can you give me an example of the 
current policies that are in place to address rupture detection 
in pipelines?
    Mr. Elliott. Well, I think perhaps, for me, based on some 
of my experience, the best example is the modernization of a 
number of the oil and gas control sites. I have been out in my 
time at PHMSA to look at those sites, and I am very impressed 
with the continuing improvements in the software that the 
control rooms that monitor the flow of both gas and liquid 
pipelines--the ability to identify any anomaly that would 
indicate either a leak or a rupture.
    And again, as I said, I have been a long-time believer in 
the fact that I think technology and automation is where we are 
going to get to the next levels of safety. But to me, that is 
where I have been the most impressed with the work that I am 
seeing done in the control rooms.
    Mr. Gallagher. Well, I look forward to following up on that 
one issue, and thank you. And I yield the balance of my time.
    Mr. Denham. Mr. Sires, you are recognized for 5 minutes.
    Mr. Sires. Thank you, Chairman, and thank you for being 
here.
    I represent New Jersey, probably the most congested area in 
the country. Just to give you an idea, I live in a town that is 
1 square mile, it has got 51,000 people on it. OK? Hoboken, New 
Jersey, has another 1 square mile, or 50,000 people.
    A few years ago we had an incident in Edison, New Jersey. 
And we found out that the pipe was 3 feet wide, and it was 
right next to an apartment complex. They said it was deep 
enough, but I don't know how you deal with these pipes that are 
so big and so large next to apartment complexes. And the 
maintenance of them, since it was so deep I don't know how much 
maintenance they did on that pipe when it blew up.
    And quite frankly, I have sat across people that want to 
put pipelines in my community when I was mayor, and the 
district--it is one of these districts where you put a shovel 
in the ground, you are bound to hit a cable or a water pipe 
or--but they dangle money in front of these communities. And I 
get concerned that maybe it is not as large as this 3-foot 
pipe. Some of these are very close to the top of the ground.
    And I am one that feels that these regulations that we have 
tried to implement since 2011, I think it is needed. So when I 
keep hearing all the time that we expedite, that we are working 
on it, and we are working on the regulation, and we are moving 
quickly, or we are streamlining this, I just hope it doesn't 
take another big blowup like what happened in Edison for you to 
move on some of these regulations, because it is going to be 
catastrophic.
    And half of these pipes don't even serve New Jersey, they 
come from Texas right into New York. We are just what they call 
interlace piping. Is that the proper word that you use in the 
industry? They all come in, and they fill in, and they go into 
another one.
    And the other concern that I have, which has always been a 
concern, is about the communications between the local 
firefighters and the people who put the pipe, and where the 
shutoff valves are. I don't know if the industry does that to a 
degree that is satisfactory to the communities that they run 
through, because they have to be aware of where the shutoff 
valves are. They have to be aware that these pipes are being 
maintained. And they have to communicate with the local 
firefighters because, at the end of the day, they are the first 
respondents.
    So all these safety features that we are talking here are 
extremely important for a district that is so congested. So I 
would hope that you would move quickly on some of these things, 
especially the ones that are the most important for the safety 
of these pipes.
    And I really don't have any particular question, other than 
try to get you to move on the safety of these pipes. Can you 
imagine these pipes, 3 feet wide, next to an apartment complex?
    Nobody knew it was there. That is another factor. I think 
they keep it quiet half of the time, so they don't tell the 
community, so they come out to the town meetings and put 
pressure on the local officials not to allow it. And you know, 
and quite frankly, they are run through, for example, Jersey 
City, right under the Hudson River, right into New York.
    So, sir, I will--you know, I will ask you--I know you have 
only been there 7 months, but, quite frankly, this is something 
that has to be addressed before there is another incident and 
then everybody reacts. But by that time it is too late.
    Thank you, Chairman.
    Mr. Denham. Thank you, Mr. Sires.
    Mr. Babin, you are recognized for 5 minutes.
    Dr. Babin. Yes, sir.
    Thank you very much for being here, Mr. Elliott. Mr. 
Elliott, now that you have been at PHMSA for a few months, what 
are your biggest priorities?
    And I was here earlier, then I had to leave to go to 
another hearing, and back in here. If you have already talked 
about this, please let me know. But what are your biggest 
priorities as it relates to the outstanding rulemakings at 
PHMSA? What are your number one, two, three, on down?
    Mr. Elliott. Congressman Babin, thank you for the question. 
They are all important. And I think the comments of the 
subcommittee underscore the sense of urgency, even more so now, 
that we need to have in moving those mandates forward.
    I do think that, you know, focusing primarily on moving the 
safety of liquid pipeline and the safety of gas transmission 
pipelines are my primary top goals. I think, by moving those 
forward, we get the best success in closing a number of open 
mandates, as well as NTSB and GAO recommendations.
    But I know there is a lot more behind there that we have to 
do, and I think, you know, kind of an equal priority is the 
fact that we can't lose our momentum. As I said earlier, I 
think we have to prove by our actions, not our words, that we 
are capable of moving forward with open mandates and with other 
rules and standards that promote the safety of moving energy 
products throughout this country. We all know that we need that 
energy to do that.
    So--and I think, you know, another priority is making sure 
that we have the most professional staff available, especially 
in the inspection side of PHMSA, to make sure that each and 
every day, when our inspection and investigation staff is out 
in the field, that we know that we have got the best talent 
available out there, working with the operators to ensure that 
the Nation's pipeline system stays as safe as possible.
    Dr. Babin. Right, OK. Thank you. Have you had the 
opportunity to go into the field and to see pipeline operations 
firsthand? Have you had that opportunity yet?
    Mr. Elliott. Congressman, thank you for that question, too. 
I am an old railroader. I am my happiest when I have my boots 
and hardhat on, I really am. And fortunately, the last few 
months I have been able to get out and I have traveled a lot. I 
have--you know, to Pennsylvania to see how natural gas pipeline 
is being installed, so I can actually get in a ditch and see 
it. Thanks to my colleagues from Williams for allowing me to do 
that.
    You know, in going to places, too, I think that, you know, 
seeing firsthand and, you know, being able to go up to 
Bellingham and talk to Carl Weimer and his team about that, I 
mean, that is a humbling experience.
    Dr. Babin. Right.
    Mr. Elliott. You know, I went, in my 40 years in the 
railroad, to a lot of derailments, and I saw a lot of impact to 
communities and to the environment. But I am not sure, after 
hearing the folks up there relive the events of 1999 that 
anything compares to something of that magnitude.
    And I will tell you, too, that, you know, trips to Texas to 
see pipeline operations and then to see the work of the 
pipeline industry in trying to push as fast as they can safety 
technology and inline inspection devices, it was really 
important for me to see and be able to talk to the vendors to 
try to understand what is on their horizon for them, what is 
the next best safety technology. So----
    Dr. Babin. Well, I was going to ask you if you had met with 
stakeholders and community leaders, and it sounds like you 
have. And is that accurate?
    Mr. Elliott. Some, but not enough. I mean I think, as my 
travels continue this year, it is really getting out to talk 
more to the public-sector side stakeholders.
    I have had the great pleasure to talk to the members of our 
public information sharing working group, the members of our 
gas and pipeline advisory groups. I have been out to a number 
of trade association conferences. So I have had a chance to 
talk to stakeholders. I think what I need to do is kind of 
balance that with talking more to some of the folks in the 
local communities.
    Dr. Babin. Well, you mentioned Texas. And, of course, my 
district is from Houston to Louisiana, and that portion of 
Texas. It has the largest pipeline infrastructure in the 
Nation, more than 439,771 miles of pipeline, representing about 
one-sixth of the total pipeline mileage of the entire country, 
a substantial portion of which is in the southeast Texas coast 
that Congressman Weber and I share and represent. And I would 
like to personally invite you to come visit our region at your 
next available opportunity.
    Mr. Elliott. Thank you, Congressman. I will tell you that I 
saw more various types of pipe in the supply yards in 5 minutes 
than I had in all my life before I went to see the pipeline 
system in Houston. Thank you.
    Dr. Babin. Yes, sir. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Shuster [presiding]. I thank the gentleman. Mr. 
Garamendi is recognized for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Mr. Elliott, thank you very much for your testimony and for 
appearing today. I know that you have a difficult task, 
catching up with the history of noncompliance by your agency.
    I was here for the hearings in 2010, following the San 
Bruno. And these photos were displayed at that time. That is a 
picture of the actual explosion. That is the 100- by 28-foot 
crater that was created. And those are the homes. [Indicating 
photographs.] And I suppose you might find the--well, we will 
just say those are the homes that were burned. It has been 8 
years, just short of 8 years since that explosion.
    The mandate in the 2010 law has not yet been completed. We 
remain extremely concerned about this. The automatic shutoff, 
the detection systems are known. They have existed for years. 
Pipeline companies across the Nation do employ automatic 
shutoffs and remote shutoff valves. But yet there is no 
regulation that requires that they be in place for 3-foot 
diameter pipe that Mr. Sires was talking about a moment ago, or 
for other pipelines across the Nation that are in high-hazard 
or high-explosive zones.
    Could you tell me what the status is of the specific 
regulations on shutoff valves, remote and automatic, and on the 
pressure requirement systems?
    Mr. Elliott. Congressman, yes. And thank you for your 
question. And, you know, the San Bruno incident also was the 
same year that we had a serious incident in Michigan, in the 
Kalamazoo----
    Mr. Garamendi. Serious in that eight people died.
    Mr. Elliott. Yes, and 51 injured, I believe, too, in there.
    So as I had mentioned earlier, the status of the rupture 
detection valve rule is a bit behind the liquid and gas rules. 
It is in the notice of proposed----
    Mr. Garamendi. Could you define ``bit behind''?
    Mr. Elliott. Well, it is in the notice of proposed 
rulemaking stage, so I cannot say specifically, time-wise, how 
far behind. But----
    Mr. Garamendi. Is there any reason you do not have a 
timeline for the rulemaking process?
    Mr. Elliott. I just do not have enough understanding of 
where we are at in the notice of proposed rulemaking drafting. 
And once we can complete that, then I can provide a better 
timeline.
    Mr. Garamendi. You have been there 7 months, and we 
understand that is a short period of time.
    If you do not have a calendar for the 2018-2019 year, I 
will be happy to deliver one to your office. We have 
congressional calendars that we hand out to our constituents. I 
will be happy to deliver you one. Could you put on that 
calendar a specific date on which you will address this issue?
    Mr. Elliott. I understand your concern, Congressman, and we 
will----
    Mr. Garamendi. I will have a calendar in your office. 
Perhaps you can----
    Mr. Elliott. I do.
    Mr. Garamendi [continuing]. Return it to me with a circle 
around the dates in which you will begin the process.
    Mr. Elliott. I----
    Mr. Garamendi. Is that possible?
    Mr. Elliott. Congressman, you have my word that we will 
move that rulemaking through as quickly as we can.
    Mr. Garamendi. No, I want a calendar date.
    Mr. Elliott. I can't do that, sir. I can't move it----
    Mr. Garamendi. Why?
    Mr. Elliott. Because I just don't know what calendar date 
it would be.
    Mr. Garamendi. Why don't you know when you can get this 
thing underway?
    Mr. Elliott. Congressman, I appreciate your concern. We 
will work as quickly as we can to move that rulemaking through.
    Mr. Garamendi. I am going to be on you like a bad spell. 
And I can assure you that the California delegation will be 
there, also. It was September 9th, 2010. Eight people died. 
Thirty-eight homes were destroyed. And you don't have a 
calendar. That is not acceptable, sir. It is simply not 
acceptable.
    A final rule, not on this particular issue, but on liquid, 
hazardous liquid pipelines, was completed, was to go into the 
Federal Register on January 13, 2017. And this administration 
pulled that back the very first day it came into office. What 
is the status of that particular regulation?
    Mr. Elliott. Congressman, that rule is in the final rule 
stage, and we hope to move that forward as quickly as possible, 
too.
    Mr. Garamendi. Do you have a date?
    Mr. Elliott. No, sir. I do not.
    Mr. Garamendi. You don't have a calendar, either?
    Mr. Elliott. I do not have a date for the----
    Mr. Garamendi. Perhaps you can have two circles, a red and 
a black circle around a specific date of when you will get the 
job done.
    You have shined us on. You and your predecessors have 
shined this committee on for 8 years. And it is over, sir. Give 
us a calendar date on when you are going to begin the process 
to move the process along, and when it will be completed.
    I am out of time. I yield back.
    And a calendar will be in your office later today.
    Mr. Elliott. Thank you, Congressman.
    Mr. Shuster. Mr. Perry is recognized for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, Mr. Elliott, 
for your presence. Over here, way on the right, here--so to 
speak.
    In your experience, are all 50 States--just so to speak--
are all 50 States equal in quality in their regulation of 
interstate pipeline facilities?
    And let me just maybe add some context to that. You know, I 
am from Pennsylvania. We have got a lot of resources, and we 
have got a lot of old infrastructure. And one of the struggles 
we are having right now--and we have had for some time--is to 
get our product to market. And some States aren't as--and God 
bless them. We have the Constitution and they have voters, and, 
you know, they make decisions for their States. But depending 
on where they are located, they are in between other States 
that would like to have access to what Pennsylvania has.
    And I know that maybe--unfortunately, I am conflating 
construction and regulation with operation and--but I will tell 
you my constituents--and I don't think most people see it any--
they just see a pipeline, or they see a lack of a pipeline.
    And I am sure you know we had an incident with a pipeline 
running across part of the district in south-central 
Pennsylvania, and the Department of Environmental Protection 
got involved with a contractor with some infractions, and so on 
and so forth, and that further imperils people's feeling of 
security and satisfaction with pipelines, in general, right? 
They don't differentiate between construction and operation, 
right?
    But I am just wondering. Are they generally equal in their 
quality of regulation and enforcement of those things? And is 
there something that the Federal Government should be doing, 
could be doing in keeping with the Constitution and the States' 
10th Amendment rights, but yet to, you know, move interstate 
commerce to where it needs to be going?
    Mr. Elliott. Congressman, thank you for the question. I 
would say that, you know, there is consistency between the 
States. But I think, to answer the very specific nature of your 
question, I would like to go back and talk to my staff about it 
and get a more detailed response and respond back to you, if I 
might.

        [The Pipeline and Hazardous Materials Safety Administration 
        indicated that it has provided Congressman Perry with the 
        information he requested.]

    Mr. Perry. Well, I would appreciate that. And like I said, 
just with the understanding that this is specific, and you 
obviously know your job very well, and you are here testifying 
on it today, but most people driving up and down the highway, 
looking at farm fields and what have you, they see pipeline, 
whether they see markers or whether they see construction, and 
they don't differentiate between operation and construction, 
but they don't want problems, right? They want to make sure 
that they can buy what is coming through the pipeline, and they 
understand it has got to get to places for refining and other 
things.
    But they want to make sure that it is safe, and they are 
counting on you and us to make sure that we are respecting 
individual property rights and States rights, but at the same 
time the interstate commerce that needs to happen, so that 
States that are landlocked out of--and I am not going to name 
any here, but I suspect you can imagine where we are headed 
here--but States are landlocked out of having the provisions 
that they want and need, because of States in the way.
    And what is the appropriate response to that? And is there 
a regulatory response, or is there something else that Congress 
needs to be doing, or that States need to be doing? And I would 
like to have you fashion your staff's answers, so to speak, in 
that kind of vein, if you would, please. And I appreciate your 
presence here.
    Mr. Chairman, I yield.
    Mr. Shuster. I thank the gentleman and recognize Mrs. 
Napolitano for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chair. Thank you, Mr. 
Administrator Elliott.
    My California colleagues, Representative Carbajal and 
Senator Feinstein wrote a letter to you on May 17th requesting 
an update on the status of the rulemaking regarding automatic 
and remote control shutoff valves. As you are aware, this 
happened in 2015 that we had the Refugio oil spill in Santa 
Barbara.
    Mr. Elliott. Yes.
    Mrs. Napolitano. Major disaster, 100,000 gallons of oil 
spilled into the ocean and shut down commercial fisheries.
    The shutoff valves and leak detection technology could have 
prevented the environmental and public health damage caused by 
the tragedy. Could you give me the status of that rulemaking, 
and when you can expect to answer that letter?
    Mr. Elliott. Congresswoman, thank you. I am aware of the 
letter that came in, and we are preparing the response for that 
letter.
    With regards to the rulemaking, again, the leak detection 
rulemaking is one that we are going to work quickly on. It is 
in the notice of proposed rulemaking stage. We have some work 
to do on it in order to get it to the final rule stage. But it 
is my pledge to you that we will continue to move forward on 
that rulemaking as quickly as we can, ma'am.
    Mrs. Napolitano. Well, I look forward to your answer, sir. 
And I would like to have a copy of that letter to Mr. Carbajal 
and Senator Feinstein.
    Mr. Elliott, because of your background in the railroad 
industry--which you have pointed out--and your current 
position, I have a question regarding the intersection of 
pipeline safety and railroad operations.
    And I'm happy to report that after 8 years of negotiation 
between Kinder Morgan Pipeline Company and Union Pacific, Cal 
Poly Pomona University, and the Alameda Corridor East Public 
Transportation Agency in my district, two rail grade crossings 
are being closed because of a new division track for Union 
Pacific. The project will reduce congestion, reduce smog, and 
increase public safety by allowing the residents in the valley 
to travel on a major corridor without stopping at two previous 
railroad crossings.
    The project was held up for 8 years because the new rail 
line ran over Kinder Morgan pipeline, and there was a 
disagreement between Union Pacific and Kinder Morgan on the 
level of protection needed for the pipeline--one type of cement 
versus another.
    Are you aware of these ongoing disagreements between 
railroads and pipeline companies across the country on the 
level of safety when they cross? And what would you do to solve 
these issues, to speed up the projects, and improve the safety?
    Mr. Elliott. Congresswoman, thank you for your question.
    I will tell you, from my railroad experience, that any time 
we can close a highway railroad grade crossing, that is a good 
thing because it promotes safety.
    And I can also tell you from my railroad experience 
managing environmental matters for the railroad, we were often 
in dialogue with pipeline operators to ensure the safety of 
pipelines underneath the railroad right-of-ways.
    And I think we saw that progress over the years, and I 
think we saw safety improve, as well, with the advent of 
horizontal directional drilling that allowed the pipelines to 
actually go further underneath the right-of-ways. As you know 
probably from your experience, our concern in the railroad is 
the vibration underneath the railroad bed. So we were always 
concerned about making sure that the pipes were far enough down 
that that vibration didn't impact the lines.
    I would expect that the railroads today continue to have 
good dialogue with their counterparts at the oil and gas 
companies to make sure that they are having those crossings as 
safe as possible.

        [The Pipeline and Hazardous Materials Safety Administration 
        indicated that it has provided Congresswoman Napolitano with a 
        copy of the letter that she requested.]

    Mrs. Napolitano. But are you addressing those issues?
    Mr. Elliott. I will have to look more into that to see if 
we have got any current issues dealing with both oil and gas 
pipeline operators and the railroads, so--and I might--I can 
consult with my colleagues over at the Federal Railroad 
Administration.
    Mrs. Napolitano. Would you kindly let this committee know? 
Because that is an important issue when it has impact on public 
safety.
    Mr. Elliott. Yes. Yes, ma'am, we will let you know.
    Mrs. Napolitano. Thank you. I yield back.
    Mr. Mitchell [presiding]. Thank you. The Chair recognizes 
himself for 5 minutes.
    You are aware of the Line 5 pipeline in Michigan, and some 
of the challenges we have had with that, Mr. Elliott?
    Mr. Elliott. I am.
    Mr. Mitchell. One of the challenges we face is the delay in 
regulations while they try to comply both in terms of what the 
regulatory requirements are, as well as what the public 
perception of the safety of that pipeline is.
    I am concerned. I want you to understand that. On a 
bipartisan basis the delays are really causing a great deal of 
distress of the public, as well as the State agencies to ensure 
full compliance in a safe environment.
    So let me go back around about that question again. What do 
we do about ensuring that we can give a timeline to folks of 
what the safety regulations will be, so they are out for review 
and we can address those?
    Mr. Elliott. Congressman, thank you for the question. I 
think I have a newfound appreciation for the subcommittee's 
sense of urgency on this issue. I have had the pleasure to 
speak with some of you individually. But collectively your 
concerns are magnified. And I think I understand that.
    We continue to do everything that we can within PHMSA to 
move the issues and prepare the regulations, those things under 
our control. We have had very good discussions with the 
Department about the need to move some of these mandates 
forward, and they are very responsive to that. And as you know, 
there are multiple steps in the process.
    But I can assure you that, while I can't provide a specific 
date or a time, that with the liquid rule and the gas rule and 
the rupture detection rule, those will move as quickly as we 
possibly can move them.
    Mr. Mitchell. Well, let me stop you because I--you are 
aware of the leak that we had in the Kalamazoo River----
    Mr. Elliott. Yes, sir.
    Mr. Mitchell [continuing]. A few years back. Are you aware 
of the anchor strike on the pipeline crossing the Sioux 
Straits? Are you aware of that? And, in fact, the pipeline was 
dented. It was not--you are aware of that, as well?
    Mr. Elliott. Yes, I have had numerous conversations with 
the executives at Enbridge on that issue, yes.
    Mr. Mitchell. And I understand the economic importance of 
the Line 5 in the State, in my district. It crosses the St. 
Clair River in my district, it crosses Port Huron into Sarnia. 
So it is not that I am immune to what the issues are. But the 
reality is a lack of clear guidance as to whether the current 
technology is acceptable that is in place. Will we need to 
change that? It is really troublesome for both the State to 
ensure compliance, the company, Enbridge, as you know, as well 
as the public impression.
    So, while I appreciate your comments regarding we will do 
the best we can, in terms of timing, I would join my colleague, 
Mr. Garamendi, to say, you know, jointly, I am sure we can give 
you a calendar. And at some point in time--I ran a business for 
35 years. Setting a date that we are going to get something 
done by matters.
    So I can't encourage you enough, and your agency enough, to 
say we need to set dates, we need to get the regs out, we need 
to get public comment on them, and we need to take that public 
comment seriously.
    Mr. Elliott. Yes, sir.
    Mr. Mitchell. Or we leave ourselves vulnerable.
    One more question for you in the limited time I have. What 
does--a little more general, what does PHMSA do with funding to 
States that do not comply with safety standards in place at 
this time?
    Mr. Elliott. Congressman, thank you for the question. You 
know, as you know, we can fund up to 80 percent of a State's 
ability to conduct pipeline inspections. We have a group within 
PHMSA that is specifically responsible for going to ensure the 
quality, the integrity of the inspections that are done by our 
State partners.
    Their funding, basically, is based on their ability to show 
success within the program.
    Mr. Mitchell. Let me stop you there. What are the ways that 
you hold States accountable if they fail to comply?
    Mr. Elliott. I think we have a number of ways. But the 
specifics of those, I can look further into what those items 
are and get back to you.
    Mr. Mitchell. Let me stop you a second. I know it has been 
7 months----
    Mr. Elliott. Yes, sir.
    Mr. Mitchell [continuing]. And lord knows you are up to 
your eyeballs. That is clear. A response of ``I think there are 
ways'' troubles me a great deal. Do we not have a better idea 
how we hold States accountable for funding 80 percent of the 
inspection cost? Does any of your staff behind you have any 
idea how we do this?
    Mr. Elliott. Congressman, I am certain there are. But 
again, I just don't have the specifics that would provide me to 
give you a specific answer.

        [The Pipeline and Hazardous Materials Safety Administration 
        indicated that it has provided Congressman Mitchell with the 
        information he requested.]

    Mr. Mitchell. Can we request that you provide something to 
the committee in writing of what the specifics are, in terms of 
holding them accountable and how you--if it is--funding another 
mechanism?
    One more quick question, if you will bear with me a moment. 
How many States, last time you reviewed it, were not in 
compliance?
    Mr. Elliott. You know, we have a regular process that 
allows us to look at State noncompliance. I don't have the 
exact number that were not in compliance. I can add that to the 
document----
    Mr. Mitchell. When was the last time that this review was 
done to determine whether States were in compliance?
    Mr. Elliott. Yes. Sir, I don't know that, and I will have 
to determine that and get back to you.
    Mr. Mitchell. You recognize the number of times you said 
``I don't know'' in the last 10 minutes, right?
    Mr. Elliott. Yes.
    Mr. Mitchell. I appreciate it. I will--who is next?
    The Chair yields for 5 minutes to Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chairman.
    First of all, I want to commend you, compliment you, 
congratulate you for taking on this assignment. And you know, 
looking at your background, it seems as though you have a lot 
of experience in transporting hazardous materials and 
compliance with regulations. And so we do have big expectations 
of you, OK, and applaud you for taking on this assignment.
    But as you know, in many cases, many of the companies have 
already started the--and gone a long ways toward implementation 
of some of these various regulations.
    But you know in good Government and in good business, that 
people have goals. They have a mission, they have workplans, 
they have timelines. And in your case, you got a mandate to get 
this done. And I want to join my colleagues here--as you will 
notice, it is a very nonpartisan, very bipartisan--the concerns 
that have been expressed. And I share all of them with them.
    So I would just like to remind you and everybody--and I 
know you know this, but to not have an estimated timeline--
nobody here expects you to be there on an exact date or a 
moment in time, but we do expect the workplan, and we do expect 
a timeline. And you have got the experience to put that all 
together, we know that. You have done good in the past, and you 
can do that for us here today.
    And to do otherwise, you know, it would be hard to judge it 
as anything other than irresponsible, a dereliction of duty--
worst case, malfeasance. And you do not want that to be your 
legacy, because you are capable of so much more and so much 
better. So I just want you to know that we are expecting a lot 
out of you, and when you come back we don't want to hear ``I 
don't know'' any more.
    And I would just have one question. Can you give this 
committee an assurance that you will put a high priority in the 
planning and your operation to give us a workplan and a 
timeline for implementation of these mandates?
    Mr. Elliott. Congressman, thank you for the good words of 
wisdom. I will tell you that in my private industry life all 
those things you talked about were highly valued, and they are 
the types of things that I am trying to put in place at PHMSA. 
And I will continue to do that.
    And, you know, I will work the best I can to create a more 
structured timeline so the subcommittee has a much better 
understanding of the delivery of these open mandates and other 
rules and standards. I am just not to the point yet where I 
can--my crystal ball doesn't allow me to be specific enough, I 
think, for the satisfaction of this subcommittee. But I will 
continue to work on that.
    Mr. Nolan. Thank you.
    Mr. Elliott. Thank you, Congressman.
    Mr. Mitchell. The Chair will now recognize Mr. Weber for 5 
minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    Mr. Elliott, I am late, so I don't know if these questions 
have been asked yet. So if they are redundant, please forgive 
the redundancy.
    Do you know what the pipeline industry itself safety rating 
is?
    Mr. Elliott. Congressman, it is extremely good. It is above 
99.99 percent.
    Mr. Weber. Above 99.99 percent? Do you know of any other 
industry that has a safety rating that high?
    Mr. Elliott. Well, I am happy to say that my former 
industry, the railroad industry, had a safety rate of above 
99.99----
    Mr. Weber. Well, I think you are a little off track, now. 
We are talking pipelines, not railroads. That is--you all see 
that pun, see what I did there?
    [Laughter.]
    Mr. Weber. Yes, Elizabeth is saying she got it.
    Here is my question. And it may have been asked. But I 
commend the pipeline industry for that kind of safety rating.
    I have the gulf coast of Texas, five ports. We produce 65 
percent of the Nation's jet fuel, almost 20 percent of the 
Nation's gasoline east of the Rockies. So a lot of pipelines 
come in to the gulf coast of Texas.
    How long have you--and I didn't get a chance to read your 
bio. How long have you been at the agency?
    Mr. Elliott. A little over 7 months, Congressman.
    Mr. Weber. A little over 7 months?
    So PHMSA has been exploring changes to the hazardous liquid 
integrity management program. And again, I have not had a 
chance to read through this, I was at another event.
    DOT's last report on the status of significant rulemaking 
show that the final rule should be issued in August. Have they 
asked you--or are you still on track to publish that rule in 
August?
    Mr. Elliott. We continue to be optimistic that the rule 
will be out--will be the first rule out. And while we can't put 
a specific date on----
    Mr. Weber. OK.
    Mr. Elliott [continuing]. We are still shooting for a 
period of time that is relatively close to what we have----
    Mr. Weber. So you may be like the Senate. You will still be 
working in August?
    Mr. Elliott. Yes, sir.
    Mr. Weber. OK. Is there a listing--I am sure there is--of 
the exact materials--liquids, gases, whatever--that this rule 
covers? Do you have a listing of that?
    Mr. Elliott. We can provide that, yes.
    Mr. Weber. Can you get that to me?
    Mr. Elliott. Yes, sir.

        [The Pipeline and Hazardous Materials Safety Administration 
        indicated that it has provided Congressman Weber with the 
        information he requested.]

    Mr. Weber. OK, great. That would be great.
    And then you also have--in my district we have the largest 
carbon capture sequestration storage facility in Port Arthur, 
Texas. It was built, actually, by ARRA, American Recovery and 
Reinvestment Act. And so we have some underground storage.
    Is PHMSA seeking input from States and stakeholders as it 
relates to underground storage on natural gas? Are you all 
seeking that input?
    Mr. Elliott. Congressman, we are. We have issued an interim 
final rule on underground natural gas storage, and we continue 
to now look at the comments that have been coming in from all 
stakeholders on that interim final rule. And I am happy to say 
that we have begun training State and Federal inspectors at our 
training center in Oklahoma on underground natural gas storage 
facilities. So we are making good progress there.
    Mr. Weber. You are aware of the shale play in Texas, Eagle 
Ford Shale Play, as well as other shale plays, and how Texas is 
leading the other 49 lesser States in natural gas production. 
And so it is a big thing for us. And as that natural gas 
production in the market is like it is for natural gas, we are 
now exporting so much LNG--my district is responsible for 
exporting about 95 percent of the Nation's LNG, worldwide. So 
it is extremely important to us.
    As that production ramps up, as natural gas prices stay 
low, does it give you all a little bit more impetus to try to 
make sure that you keep up with this on a more frequent basis? 
Are you paying close attention to the gas plays?
    Mr. Elliott. Certainly, yes. I mean we have actually 
reallocated resources, technical resources at PHMSA to help us 
stay as current as we can on the natural gas, especially on the 
export side. We continue to work closely with other regulatory 
agencies, such as FERC [Federal Energy Regulatory Commission], 
on the whole siting issue, as well.
    Some of our natural gas rules are ones that we want to 
modernize. But again, we are working hard, because we 
understand the pace at which that whole sector is moving, and 
we need to make sure that we can stay up to speed with that.
    Mr. Weber. Is your office--since you have been there 7 
months--I know there has been some questions about a lot of 
some of the nominations that are not making it through the 
Senate, for example--is your office adequately staffed?
    Mr. Elliott. Yes, sir, it is. We have made significant 
headway. As I had mentioned earlier, when I came on board we 
had about 40 vacancies, and a large number of those were in the 
field inspection investigation side. On the pipeline side the 
number was close to 20. I am happy to say we actually have 15 
offers on the table now for new pipeline inspectors.
    It has been a challenge to find qualified people. But with 
some changes in our recruiting process, I think we have kind of 
gotten over the hump on that.
    Mr. Weber. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Mitchell. The Chair recognizes Mrs. Napolitano for some 
questions.
    Mrs. Napolitano. Thank you, sir. Thank you for allowing me 
the second go-around.
    But I had one more question to add, Administrator Elliott, 
that one of our priorities in the 2016 act was to ensure that 
the coastal beaches and marine coastal waters are considered 
unusually sensitive areas for purposes of ensuring pipelines in 
these areas are governed under PHMSA's integrity management 
regulations, which include inspection, repair, and maintenance.
    The DOT website states that this is still in the advanced 
notice of proposed rulemaking stage, and that you have 13 staff 
working on it, but it is delayed due to competing priorities. 
Would you explain and clarify this?
    Mr. Elliott. Congresswoman, thank you for that question. I 
am very aware of the need and the sense of urgency of that 
rulemaking.
    You know, I have been working to prioritize rulemakings, 
and I have worked with my staff to make the determination to 
prioritize and focus most on the mandates that really provided 
the greatest level of safety.
    You are correct, it is still in the advanced notice of 
proposed rulemaking. We have had a public meeting on that 
topic, and we are looking at the responses of that.
    I think one of the difficulties in this specific rulemaking 
is we are finding it difficult to actually define some of the 
parameters of the Great Lakes area, as it applies to the 
rulemaking. So it has been a little bit more of a challenge to 
the staff, but it is something that we are going to keep 
focusing on, and keep moving forward as quickly as we can.
    Mrs. Napolitano. Well, you have three great areas: 
Florida----
    Mr. Elliott. Yes, ma'am.
    Mrs. Napolitano [continuing]. California, and Texas that 
require specific focus on these issues. Anything we can do to 
ensure this moves along?
    Mr. Elliott. Congresswoman, I think what you can all do for 
me is just, you know, provide me with your thoughts, your 
comments, your concerns. You know, I do apologize that I am 
still getting up to speed on certain areas. But again, I am a 
person who believes in actions and not necessarily words as 
proof of what we are capable of doing at PHMSA.
    Mrs. Napolitano. I am glad to hear that, sir. And we will 
look forward to the answer.
    Thank you, I yield back.
    Mr. Elliott. Thank you, Congresswoman.
    Mr. Mitchell. Seeing no further questions, I want to thank 
you, Administrator Elliott, for your time today, for your 
testimony and feedback. They have been very helpful. And I am 
sure we look forward to seeing you again in a hearing in the 
future to get more feedback from you, sir. Thank you for 
coming.
    Mr. Elliott. Thank you, Congressman. Thank you, members of 
the subcommittee.
    Mr. Mitchell. I would now like to welcome--we are awaiting 
votes, so we are going to introduce the next panel and, 
depending on the schedule of votes, we will then proceed.
    I would now like to welcome our second panel, if they want 
to get settled.
    [Pause.]
    Mr. Mitchell. Good morning, gentlemen. It is still morning. 
Thank you for coming, and I appreciate it.
    I would like to welcome our second panel. We welcome today 
Mr. Andrew Black, who is president and CEO of the Association 
of Oil Pipe Lines.
    Thank you for coming.
    Mr. Robin Rorick, midstream and industry operations group 
director for American Petroleum Institute.
    Mr. Chad Zamarin, senior vice president of corporate 
strategic development at the Williams Companies, on behalf of 
the Interstate Natural Gas Association of America. That is 
quite an acronym.
    And Mr. Carl Weimer, executive director of the Pipeline 
Safety Trust.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    We will kick off today with Mr. Black.
    Would you please proceed?

TESTIMONY OF ANDREW J. BLACK, PRESIDENT AND CEO, ASSOCIATION OF 
  OIL PIPE LINES; ROBIN RORICK, GROUP DIRECTOR, MIDSTREAM AND 
    INDUSTRY OPERATIONS, AMERICAN PETROLEUM INSTITUTE; CHAD 
      ZAMARIN, SENIOR VICE PRESIDENT, CORPORATE STRATEGIC 
  DEVELOPMENT, THE WILLIAMS COMPANIES, INC., ON BEHALF OF THE 
INTERSTATE NATURAL GAS ASSOCIATION OF AMERICA; AND CARL WEIMER, 
           EXECUTIVE DIRECTOR, PIPELINE SAFETY TRUST

    Mr. Black. Thank you. I am Andy Black, president and CEO of 
the Association of Oil Pipe Lines. AOPL represents transmission 
pipeline operators that deliver crude oil, refined products 
like gasoline, diesel fuel, and jet fuel, and natural gas 
liquids such as propane and ethane. Ourpipelines safely deliver 
more than 18 billion barrels of crude oil and energy products 
per year.
    Pipelines play a critical role in delivering energy to 
American workers and families. Americans use the energy our 
pipelines deliver in their cars and trucks to commute to work 
or drive on the job. Our pipelines transport products like 
propane that farmers use for rural heating and crop drying, and 
raw materials such as ethane that American workers use for 
good-paying manufacturing jobs.
    Pipelines are an exceedingly safe way to deliver the energy 
America needs. As the American people debate alternatives for 
transporting energy across the country from where it is 
produced to where it is refined to where it is consumed, you 
can know that pipelines are the safest way for the American 
people to get the energy they need.
    According to data collected by PHMSA, the safety of liquids 
pipelines has improved dramatically over the last 5 years. 
Liquid pipeline incidents impacting the public or the 
environment are down 19 percent since 2013. A subcategory of 
incidents impacting the public and the environment caused by 
corrosion, cracking, or pipe failure are down 35 percent in 
that period. Incidents impacting the public or the environment 
caused by operations or maintenance failures are down 24 
percent. These key performance indicators were developed 
jointly by PHMSA, the Pipeline Safety Trust, and the liquids 
pipeline industry, in recommendation to a response by the NTSB 
to develop more meaningful metrics for tracking pipeline 
safety.
    Each of these safety performance metrics are included in 
our annual pipeline safety excellence report we issue jointly 
with the American Petroleum Institute. Self-reporting on our 
industrywide performance is part of our effort to be 
transparent about our safety programs and invite a conversation 
on how we can best tackle remaining pipeline safety issues. We 
use performance data, recommendations from regulators and 
safety investigations, and lessons learned from incidents and 
near misses to guide our industrywide efforts. Based on this 
information, personnel from member companies participate in 
nearly two dozen industrywide pipeline groups to improve 
operations and safety.
    We are also funding research and development on pipeline 
inspection technologies, enhancing our threat detection and 
response capabilities, expanding safety culture and management 
systems, and boosting our emergency response capabilities.
    Through our pipeline safety excellence program, member 
companies have completed development of a number of recommended 
practices and technical reports to improve our ability to 
detect pipeline cracking, integrate safety data, manage safety 
efforts holistically, manage leak detection programs, and 
better plan for and respond to pipeline emergencies.
    We are now actively engaged in implementation efforts to 
educate, encourage, and help members implement these best 
practices. A prime example is API Recommended Practice 1173 for 
Pipeline Safety Management Systems. Recommended by NTSB and 
developed in conjunction with PHMSA and State pipeline 
regulators, pipeline safety management systems are helping 
pipeline operators comprehensively and holistically manage all 
the safety efforts underway across a company.
    Aviation, nuclear power, and chemical manufacturing have 
benefitted from safety management systems, and pipelines are, 
too. The NTSB said the response to the pipeline safety 
recommendation on safety management systems ``exceeded 
expectations.''
    Pipeline operators within AOPL and API will complete 
updates of industrywide guidance on how to proactively inspect 
and when to perform preventive maintenance on pipelines, how to 
protect our companies and systems againstcyberattacks, and how 
to safely manage idled pipelines.
    As we move closer to the reauthorization of the national 
pipeline safety program, our improved safety record is clear. 
Pipeline operators have learned the lessons of past 
pipelineincidents, and are developing new technologies and 
innovative safety methods to prevent the incidents of the 
future. Pipeline operators have implemented past mandates from 
Congress, including notification of incidents within 1 hour of 
confirmed discovery, sharing safety data sheets in the early 
hours of an incident, and more frequent inspections of inland 
deep-water pipelines.
    Looking ahead there is great potential to harness the 
safety benefits of new technologies and innovative methods for 
keeping pipes safe. As the PHMSA Administrator said, we are on 
the verge of a pipeline safety technology renaissance. But a 
continuing challenge is to ensure that Federal oversight of 
pipeline safety keeps pace with technology and innovation. 
Federal pipeline safety regulations developed 10 or 20 years 
ago sometimes do not reflect modern improvements to safety 
inspection technologies and capabilities.
    We look forward to working with the committee on these 
issues, and I will be ready to answer any questions. Thank you.
    Mr. Mitchell. Thank you, Mr. Black, for your comments.
    Mr. Rorick, you may now proceed.
    Mr. Rorick. Good morning, Congressman Mitchell, Ranking 
Member Capuano, and members of the subcommittee. I am the 
midstream group director at the American Petroleum Institute, 
where I oversee the organization's efforts to promote and 
ensure the safety of our Nation's energy infrastructure, 
including pipelines, rail, and maritime assets.
    We appreciate the subcommittee's focus on promoting the 
safety of our Nation's energy infrastructure, and appreciate 
the Pipeline and Hazardous Materials Safety Administration's 
efforts to continue to implement the Protecting our 
Infrastructure of Pipelines and Enhancing Safety Act of 2016.
    However, in doing so, it is important that it be done in a 
way that helps ensure that practical and performance-based 
safety regulations are instituted. The development of efficient 
and effective pipeline safety regulations ensures that we are 
taking proper actions to protect the public and the 
environment, while at the same time continuing the U.S. energy 
renaissance that provides American consumers with access to 
affordable and reliable energy.
    Right now, the United States is leading the world in the 
production and refining of natural gas and oil, and leading the 
world in the reduction of carbon emissions to the lowest levels 
in 25 years. Further, consumers are benefitting from our 
Nation's energy dominance throughout the world, with affordable 
American energy.
    Pipelines are critical to ensuring that consumers keep 
feeling the benefits of our Nation's vast energy resources, and 
they are one of the most efficient ways to safely deliver the 
energy that Americans use every day, from the gasoline that 
fuels our transportation systems to the life-saving medical 
devices made from liquid petroleum products, to the clean 
natural gas that is used to generate much of the electricity 
for our Nation's homes, manufacturing plants, hospitals, and 
schools.
    It is estimated that increased investment in our Nation's 
energy infrastructure, including pipelines, is a $1 trillion 
proposition that could support 1 million jobs per year through 
2035, and add up to $100 billion to our GDP, annually.
    At the direction of Congress, PHMSA has been working on the 
development of two significant pipeline safety regulations, one 
for oil and another for natural gas. Our industry has and will 
continue to proactively and collaboratively engage with the 
agency as they develop these rules to achieve our shared goal 
of ensuring the safe and efficient transportation of our oil 
and natural gas and their products.
    For example, for the safety of hazardous liquids 
transmission rule, we encourage PHMSA to consider our 
recommendations, including repair criteria and the ability to 
use engineering analysis in examining pipeline anomalies. For 
the safety of gas transmission and gathering pipelines rule, we 
appreciate and support the collaborative discussions through 
the Gas Pipeline Advisory Committee, or GPAC, to produce 
consensus recommendations for new regulations.
    We hope to see similar discussions through the GPAC for 
gathering pipelines, including the consideration of needed API 
Recommended Practice on the subject.
    As an industry, we are committed to safety in all of our 
operations. API continues to develop and revise critical 
standards and recommended practices following the accreditation 
process of the American National Standards Institute, or ANSI.
    Specifically, API has developed a number of standards to 
address pipeline safety in close coordination with subject 
matters from industry, Government, academia, and the broader 
stakeholder community. In fact, PHMSA has incorporated, by 
reference, many of these standards in their regulations. As API 
standards are updated or new ones are developed to incorporate 
the latest advances and best practices in safety within our 
industry, PHMSA should execute a timely review to incorporate 
by reference the latest edition or the first edition of 
appropriate standards.
    Ensuring that pipeline operations can use the most recent 
and innovative technology will also help to bolster pipeline 
safety. Current regulations have no deadlines associated with 
PHMSA's review, notification, and issuance of special permits 
for new technology. This can result in inefficiencies and, more 
importantly, can prevent the industry from taking advantage of 
the latest safety equipment and practices.
    Operators are required to conduct timely assessments of 
pipeline integrity, and that may often be done more effectively 
with new technologies. However, there is a hesitation to do so, 
given at times the burdensome special permit process. Requiring 
PHMSA to exercise their authority to issue a special permit to 
review alternative safety technology permit applications within 
90 days will also provide greater certainty in the special 
permit process, but will also aid operators in utilizing the 
latest cutting-edge technologies to further pipeline safety.
    In fact, at a more recent meeting of the Gas Pipeline 
Advisory Committee, members recommended including this concept 
in the proposed safety of gas transmission gathering lines 
rule, and PHMSA expressed agreement.
    Let me close by once more emphasizing that the oil and 
natural gas industry is committed to promoting safety in all of 
its operations, while it strives to ensure that American 
families and businesses can safely and efficiently access 
affordable and reliable energy.
    Again, thank you for the opportunity to appear before you 
today, and I am happy to answer any questions you may have.
    Mr. Mitchell. Thank you, Mr. Rorick, for your comments.
    Mr. Zamarin, if you would like to begin, please, thank you.
    Mr. Zamarin. Thank you, Congressman. My name is Chad 
Zamarin, and I am senior vice president of corporate strategic 
development at the Williams Companies.
    Williams owns and operates critical energy infrastructure, 
including our Nation's largest natural gas pipeline system. We 
help to bring to market approximately one-third of the Nation's 
natural gas, gas that is used to heat our homes, cook our food, 
and increasingly generate electricity in an environmentally 
responsible manner.
    As mentioned by the chair, I am here today representing the 
Interstate Natural Gas Association of America's membership. I 
also serve on the Department of Transportation's Gas Pipeline 
Advisory Committee, or GPAC, which Mr. Rorick mentioned. The 
GPAC serves as an advisory committee to DOT and to PHMSA 
regarding matters of pipeline safety and regulatory oversight, 
and is comprised of equal representation from the gas industry, 
Government agencies, and members of the public.
    There are four principal points that I wish to make in this 
testimony on behalf of the natural gas infrastructure industry.
    First, operators will continue to incorporate new 
technologies and enhance safety practices, even in the absence 
of new regulations or legislation. Our pipeline infrastructure 
represents what is great about our country and is a unique 
American advantage.
    Our pipeline network is the most vast and advanced in the 
world, with major portions built in times of greatest need, 
when many said it couldn't be done: pipelines built to fuel our 
Industrial Revolution, to avoid waterborne threats during times 
of great world wars, to fuel the growth and life quality of our 
great cities, and now to support the transition of our economy 
to cleaner fuels and renewable resources. In this spirit, in 
advance of PHMSA completing its pending rulemaking, INGAA 
[Interstate Natural Gas Association of America] members 
committed voluntarily to undertake significant efforts to 
enhance pipeline safety.
    In one area alone, this work has supported an approximately 
80-percent decrease in onshore gas transmission manufacturing-
related incidents since 2010, which was the year that a 
manufacturing-related incident on a pipeline in San Bruno, 
California, spurred many of the mandates we are discussing 
today.
    Second, operators support sensible regulations and the 
completion of the pending rulemakings in a timely manner. It is 
critical for an industry of our national importance to have 
regulatory certainty to support ongoing investment and safety 
enhancement. PHMSA continues to work towards addressing 
pipeline safety mandates delivered in the last two 
reauthorizations, and we strongly support PHMSA completing its 
work in a timely and transparent manner.
    Implementing voluntary pipeline safety programs, as we have 
heard today, during the pendency of proposed regulations, 
presents business risk. These pending regulations are meant to 
facilitate safety advances. However, if they take too long or 
aren't developed in a transparent manner, we risk the 
unintended consequence of delaying voluntary implementation of 
safety measures.
    Third, the GPAC, which we have mentioned before, provides a 
process that has proven effective in facilitating broad 
stakeholder review of pending rules, and the GPAC should remain 
an active participant in PHMSA's work. Early last year, PHMSA 
initiated a series of GPAC meetings to consider the proposed 
natural gas transmission and gathering rule, one of the most 
ambitious and complex pipeline safety rules ever proposed. 
Several public meetings were held to review and advise on the 
rulemaking, and broad consensus was reached around many 
challenging topics.
    The GPAC's work, in collaboration with PHMSA and its staff, 
in my view, represents one of the most significant enhancements 
to pipeline safety since the original Federal regulations were 
promulgated in 1970.
    Finally, there are several outdated regulations that do not 
reflect current leading practices, and should be updated or 
eliminated. These outdated regulations result from a Code of 
Federal Regulations that have been established over the past 50 
years, one rulemaking at a time.
    As an example, PHMSA has announced its intent to consider 
whether integrity management programs offer an effective 
alternative to outdated class location requirements. Due to 
these outdated requirements, our industry spends between $200 
and $300 million a year replacing perfectly good pipe segments.
    As another example, outdated inspection practices such as 
pressure testing and destructive material testing are required 
by code, yet can result in unnecessary outages and avoidable 
evacuation of methane to the atmosphere, while newer 
technologies can provide better safety practices and assurances 
without such negative effects. These are just a couple of the 
examples of the many practices that result from regulations 
issued as far back as 1970 with many based on technologies 
developed in the 1940s and 1950s. We have learned a lot in the 
past 70 years, and there are much more productive ways to 
invest these substantial resources.
    In conclusion, the natural gas infrastructure industry 
fully supports the mission of PHMSA and its hard-working 
professionals. We will continue to be proactive in adopting 
advancements in technology and safety practices, while 
supporting the implementation of new regulations in a timely 
and transparent manner.
    We urge the acceleration of new regulations through 
collaboration with the GPAC alongside the rapid review and 
retirement of outdated regulations that serve as an anchor 
dragging behind an economic and safety enhancement engine ready 
to fire on all cylinders.
    Thank you again for the opportunity to be here today.
    Mr. Mitchell. Thank you, Mr. Zamarin, for your comments.
    Mr. Weimer, you may proceed.
    Mr. Weimer. Good morning, and thank you for inviting me to 
speak about pipeline safety today.
    Before I talk about the PIPES Act, let me give you a brief 
overview of where we stand today regarding the safety of 
pipelines in this country.
    Everyone testifying today supports the goal of zero 
incidents. Yet, according to PHMSA data, since the President 
signed the PIPES Act 2 years ago, there have been 1,186 
reportable pipeline incidents. Of those incidents, 544 were 
considered significant incidents under PHMSA's definition, and 
the number of significant incidents has been increasing over 
the past decade.
    Also of concern is that over 70 percent of the failures on 
gas transmission and hazardous liquid pipelines are from causes 
the operators ought to have control over, such as corrosion, 
incorrect operations, and problems with the materials and 
equipment they use.
    For the past 15 years, the emphasis on reducing pipeline 
incidents has been focused on integrity management programs in 
high-consequence areas. Unfortunately, significant incident 
rates within high-consequence areas also continue to climb for 
hazardous liquid and gas transmission pipelines.
    We have also included in our testimony today how the 
pipeline safety system that Congress has created also plays a 
part in PHMSA's inability to get things done. One barrier to 
getting to zero pipeline incidents is the cost-versus-benefit 
analysis that both Congress and various administrations have 
required new pipeline safety regulations to meet.
    With a large pipeline system where the probability of a 
failure is low, but the consequences can be huge, it is nearly 
impossible to pass regulations that move us toward the goal of 
zero incidents under the current cost-versus-benefit rules. We 
hope you will make appropriate changes.
    Congress has also prioritized a system that uses industry-
developed voluntary standards and recommended practices without 
at the same time creating a system to ensure broad 
participation in the development of those voluntary standards, 
or to even verify if companies are using those voluntary 
efforts, or using them properly. We hope you will change this, 
as well.
    We believe that PHMSA has met the regulatory reporting 
requirements in the PIPES Act. Yet clearly, what is shown by 
PHMSA does not portray the true tortured nature of some of 
these rulemaking efforts.
    For instance, the large rule meant to improve the safety of 
this country's hazardous liquid pipelines was started nearly 8 
years ago, but that fact is not clear on the web page. What is 
also not mentioned is how many times the rule has bounced back 
and forth between PHMSA and OMB, and that even though the rule 
was ready for final publication, the current administration put 
a hold on it in January of last year for concerns yet to be 
stated publicly.
    We suggest, to get a better idea of where the delay in the 
rules is actually occurring, that PHMSA's rulemaking chart 
include the date the rulemaking was begun, and for how long 
PHMSA, OST, and OMB each had the rule in their possession.
    In sections 4 and 5 of the PIPES Act, Congress asked the 
GAO to produce important reports on the integrity management 
programs for both natural gas and hazardous liquid pipelines. 
The directive in the PIPES Act asks for these reports after the 
new gas and hazardous liquid rules are published. Since those 
rules have yet to be published, and the current integrity 
management rules have been in place for over a decade and are 
well understood, we ask that Congress direct GAO to produce 
these important reports as soon as possible, instead of waiting 
for the proposed rules.
    In the PIPES Act Congress mandated that PHMSA issue minimum 
Federal safety standards for natural gas storage facilities 
within 2 years. There are still no final standards in place. 
PHMSA issued an interim final rule in December 2016. That 
interim rule essentially incorporated by reference two 
industry-developed recommended practices. Yet in January of 
2017 a group of industry organizations filed a petition for 
reconsideration of the interim rule. PHMSA agreed to consider 
the petition and take further comments on the interim rule, and 
hold off on any enforcement. No final rule or decision on the 
petition for reconsideration has yet been issued.
    In the PIPES Act Congress also directed PHMSA to make it 
clear that the Great Lakes coastal beaches and marine coastal 
waters are considered unusually sensitive areas. This mandate 
is yet to be accomplished. The need to do this came as a 
surprise to us, since clearly these areas are unusually 
sensitive. We were also surprised to learn that PHMSA does not 
currently have a way to define and map all such areas. Congress 
should direct PHMSA to show how all such unusually sensitive 
areas are being mapped and identified, and set up a system so 
local and State governments that identify these areas in their 
jurisdictions all the time at least have an opportunity to 
review and comment on such PHMSA designations.
    I see my time is about up, so I just want to thank you for 
allowing me to testify today.
    Mr. Mitchell. Thank you for your testimony, Mr. Weimer. As 
you are aware, votes have been called. We are going to put 
ourselves on the incentive system. If everyone keeps their 
questions and answers short, we can wrap this up before we go 
vote, and therefore, we can adjourn the hearing. Otherwise, we 
are going to have to come back.
    I am going to yield to my ranking member, and not have any 
questions, to move this forward.
    Sir?
    Mr. Capuano. Thank you. And I appreciate the panel, and we 
are trying to be respectful of your time, as well.
    Just quickly, Mr. Zamarin, as I understand it, you are the 
only one here who works for a private company. The others work 
for associations. As a member of a private enterprise, if your 
bosses told you to do something and you didn't do it for 8 
years, how long do you think you would be employed?
    Mr. Zamarin. Congressman, thank you for the question. I 
can't imagine long.
    Mr. Capuano. I didn't think so.
    Mr. Black and Mr. Rorick, you both work for associations. 
If your board told you to do something and you didn't do it for 
8 years, how long do you think you would be employed by the 
association?
    Mr. Black. It would be somebody else here.
    Mr. Rorick. Yes, I would have to agree with that.
    Mr. Capuano. That is what I thought. Because of timing, Mr. 
Weimer, I think you do a great job, thank you for your support.
    Thank you, gentlemen, for being here, and I apologize for 
the shortness of this.
    Mr. Mitchell. Thank you. The Chair recognizes Ms. Esty for 
her questions, thank you.
    Ms. Esty. We appreciate you being here, and would urge you 
to continue to, as we move forward with possible--as you 
heard--reauthorization of PHMSA, if it is really complying with 
what needs to happen.
    Just to flag concerns, I know I have some. And as a number 
of you have mentioned, new technologies, we can't embed old 
rules that rely on less useful technologies.
    I have been working with other members of the committee on 
the corrosion issue. Obviously, there is huge opportunities for 
new sensors, for drones, and other kinds--you know, small 
robotics to make inspections more frequent, safer. So those of 
us both on this committee and the Committee on Science, Space, 
and Technology would be very interested in following up with 
you with some ideas on that front. The very fact that a number 
of these regulations have not been issued may allow us to 
potentially leap forward with better technologies. So we would 
ask for your help and support in thinking about that.
    And for all of you, I do think it is really important that 
we look at the culture issue, the safety culture that we need 
to have within those who are implementing rules. You can have 
the best rules on the book, but if they are not implemented 
well, if they are not incorporated into the culture, nothing is 
going to matter, and people will continue to lose their lives.
    So if you can follow back up with us--wanting to allow my 
colleagues to have a chance to ask their questions, but I am 
quite interested in your thoughts on how we ensure that, rather 
than adversarial attitude, that we actually are working hand in 
glove in a culture of safety that really is protecting workers 
and the public so we can ensure safe delivery of energy to the 
American people.
    Thank you very much, and I appreciate your efforts.
    Mr. Mitchell. Thank you for your question and your brevity.
    Mr. Lipinski, you are recognized.
    Mr. Lipinski. Thank you. I want to make sure I get this 
done quickly. So thank you all for your testimony, and I thank 
the chairman.
    When we were considering the PIPES Act, I called attention 
to a number of reports from TSA [Transportation Security 
Administration], GAO, and CRS [Congressional Research Service] 
that identify pipelines as increasingly a target of attempted 
cyberattacks. So at that time I had requested, along with 
Ranking Member DeFazio, that the GAO do a study of the adequacy 
of pipeline control system cybersecurity. GAO is in the 
process, I understand, of concluding this study right now.
    Early this month two FERC commissioners published an 
editorial expressing their opinion that there should be 
mandatory cybersecurity for gas pipelines. I have more specific 
questions, but let me throw this out as a general question, 
just so we can--I can submit the other questions for the 
record, possibly.
    But I just want to ask Mr. Rorick if you think that there 
needs to be mandatory guidelines, regulatory mandates, or is 
the current creation of industry consensus standards and 
recommended practices, is that enough, do you believe?
    Mr. Rorick. Congressman Lipinski, we--there is an existing 
API Recommended Practice, 1164, that deals specifically with 
the issues that you are talking about on SCADA [supervisory 
control and data acquisition] systems, and industrial control 
systems. That recommended practice is currently being updated. 
We have invited TSA to participate in it, so they are well 
aware of it.
    And in addition, that recommended practice also references 
the NIST [National Institute of Standards and Technology] 
framework, which is broadly used by not only our industry, but 
multiple industries.
    So we feel we are well aware of the threats, we are 
coordinating very closely with TSA, DOE [Department of Energy], 
DHS [Department of Homeland Security], and the other 
intelligence agencies. And we feel that we are very engaged and 
on top of these issues. But there is always more to learn, sir, 
and we would welcome the opportunity to discuss it further.
    Mr. Lipinski. I thank you. With that, for time, I will 
yield back. Thank you.
    Mr. Mitchell. Thank you, Mr. Lipinski. Thank you, 
gentlemen, for being here. I am sorry that votes today have 
abbreviated the time people may have had for questions. Your 
comments have been helpful to today's hearing.
    As there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided the answers to any 
questions that may be submitted to the record, unanimous 
consent that the record remain open for 15 days for any 
additional comments or questions from Members or witnesses that 
will be included in today's record.
    Without objection, so ordered.
    I would like to thank our witnesses again. Thank you for 
being here, and for your testimony.
    If the other Members don't have anything to add, the 
subcommittee standards adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
